No. 20-1485
In the

Supreme Court of the United States
JOELLEN MARY CROSSETT,
Petitioner,
v.
EMMET COUNTY, MI; PETER A. WALLIN,
Sheriff, CODY WHEAT, Sheriff Deputy;
FULLER COWELL, Sheriff Deputy; WADE
LEIST, Sheriff Deputy/Detective; JAMES
R. LINDERMAN, Prosecutor; STUART
FENTON, Assistant Prosecutor; MICHAEL H.
SCHUITEMA, Assistant Prosecutor,
Respondents.
On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Sixth Circuit

BRIEF IN OPPOSITION
Douglas J. Curlew
Counsel of Record
Cummings, McClorey, Davis & Acho P.L.C.
17436 College Parkway
Livonia, MI 48152
(734) 261-2400
dcurlew@cmda-law.com
Counsel for Respondents
May 14, 2021
304568

A
(800) 274-3321 • (800) 359-6859

i
COUNTERSTATEMENT OF
QUESTIONS PRESENTED
1. Should the petition be denied on the ground that
the Petitioner seeks review of a question that she neither
pleaded as an actual claim, nor substantively argued, in
the courts below?
2. Should the petition be denied on the ground that
the Petitioner is neither a proper party, nor a competent
advocate, with regard to the question for which she seeks
review?

ii
PARTIES TO THE PROCEEDINGS
Petitioner (who was plaintiff below) is JoEllen Mary
Crossett.
Respondents (who were defendants below) are Emmett
County, MI; Emmet County Sheriff Peter A. Wallin;
Emmet County Deputy Sheriffs Cody Wheat, Fuller
Cowell and Wade Leist; Emmett County Prosecutor
James R. Linderman; and Assistant Emmet County
Prosecutors Stuart Fenton and Michael H. Schuitema.

iii
CORPORATE DISCLOSURE
None of the Respondents is a publicly ow ned
corporation or a subsidiary or affiliate of such.

iv
TABLE OF CONTENTS
Page
COUNTERSTATEMENT OF
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDINGS  . . . . . . . . . . . . . . ii
CORPORATE DISCLOSURE  . . . . . . . . . . . . . . . . . . .  iii
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . iv
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . . vi
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT REGARDING JURISDICTION  . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 1
ARGUMENT FOR DENYING THE PETITION . . . . 4
I.

T H IS COU RT SHOU LD DEN Y
CROSSETT’S PETITION, BECAUSE
SHE SEEK S REV IEW OF A
QUESTION NEVER SUBSTANTIVELY
A RGUED BY CROSSET T IN THE
DISTRICT COURT.  . . . . . . . . . . . . . . . . . . . . . . . 4

v
Table of Contents
Page
II. T H I S C O U R T S H O U L D D E N Y
CROSSETT’S PETITION, BECAUSE
SHE IS NOT A PROPER PARTY OR
A DVOCATE REGARDING TRIBAL
RIGHTS OF THE LITTLE TRAVERSE
BAY BA ND OF ODAWA INDIA NS,
WHICH ARE BEING LITIGATED BY
PROPER PARTIES AND COMPETENT
COUNSEL IN ANOTHER CASE . . . . . . . . . . . 6
III. T H I S C O U R T S H O U L D D E N Y
CROSSETT’S PETITION, BECAUSE THE
SIXTH CIRCUIT CORRECTLY DECIDED
THE ISSUES ACTUALLY PRESENTED
AND ARGUED BY CROSSETT IN THE
COURTS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . 7
CONCLUSION.  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

vi
TABLE OF CITED AUTHORITIES
Page
Cases
Byrd v. United States,
___ U.S. ___, 138 S. Ct. 1518 (2018) . . . . . . . . . . . .  4-5
City of Springfield, Massachusetts v. Kibbe,
480 U.S. 257 (1987) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
Little Traverse Bay Band of Odawa Indians v.
Whitmer,
398 F. Supp. 3 (W.D. Mich. 2019)  . . . . . . . . . . . . . . . . 4
McGirt v. Oklahoma,
___ U.S. ___, 140 S. Ct. 2452 (2020) . . . . . . . . . . 1, 2, 5
Timbs v. Indiana,
___ U.S. ___, 139 S. Ct. 682 (2019) . . . . . . . . . . . . . . . 5
Statutes
28 U.S.C. § 1254 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

1
OPINIONS BELOW
The appendix filed by Petitioner Crossett contains
the Report and Recommendation by the magistrate judge
and the Opinion and Order of the district court judge
from the United States District Court for the Western
District of Michigan. (Petitioner’s Appendix, 24a – 47a
and 11a – 20a). The Petitioner’s appendix also includes the
order of the United States Court of Appeals for the Sixth
Circuit that affirmed summary judgment in favor of the
Respondents (Petitioner’s Appendix, 1a – 10a), together
with the order of the Sixth Circuit denying en banc review
(Petitioner’s Appendix, 21a).
STATEMENT REGARDING JURISDICTION
The order of the United States Court of Appeals
for the Sixth Circuit was issued November 12, 2020. A
petition by Crossett seeking rehearing en banc was denied
January 15, 2021.
Taking advantage of this Court’s COVID 19 order of
November 13, 2020, Petitioner Crossett filed her petition
with this Court on April 22, 2021 (within the current 150
day filing period). Therefore, Petitioner Crossett has
timely invoked the jurisdiction of this Court under 28
U.S.C. §1254.
STATEMENT OF THE CASE
During the pendency of Petitioner Crossett’s appeal to
the United States Court of Appeals for the Sixth Circuit,
this Court issued its opinion in McGirt v. Oklahoma, ___
U.S. ___, 140 S. Ct. 2452 (2020). In her reply brief to the

2
Sixth Circuit, Petitioner Crossett tried to re-cast her case
in terms of her supposed rights in Michigan akin to those
afforded to Native Americans on tribal reservation lands
in Oklahoma under McGirt. The Sixth Circuit rejected
this attempt, observing that:
Crossett argues for the first time in her reply
brief that Michigan officials lacked jurisdiction
to arrest and prosecute her because she is an
Indian on Indian lands. But we will not consider
arguments that are first raised in a reply brief
because the defendant did not have a chance
to respond.
(Petitioner’s Appendix, 10a).
Indeed, the Respondents never had the occasion to
respond to such a contention, because Crossett neither
pleaded it as an actual claim for relief in her Complaint,
nor argued it substantively in any submission to the lower
courts prior to her reply brief on appeal.
To be sure, Crossett referenced in her 40-page,
267 paragraph Complaint that she is “a member of the
Mackinac Bands of Chippewa and Ottawa of Cross
Village” who “possesses a Descendancy Card from Little
Traverse Bay Bands of Emmet County.” In deposition,
Crossett asserted that all of Michigan is a “reservation”
and that only tribal or federal authorities have jurisdiction
to arrest or prosecute any Native American.
As pointed out by the Report and Recommendation
of the magistrate judge, however, Crossett’s Complaint
asser ted twenty-four claims based upon var ious
theories of free speech, retaliation, unlawful arrest and

3
imprisonment, excessive force and deliberate indifference.
(Petitioner’s Appendix, 25a). At no point did she present
or substantively argue in any brief (prior to her appellate
reply) that the Respondents could not arrest and prosecute
her due to Native American status or presence on any
“Indian land.”
A lthough mentioning Native A merican status,
Crossett’s briefs in the district court, as well as her
principal brief on appeal, simply contested the defenses
argued by the Respondents - - i.e., that the Respondent
prosecutors had absolute immunity and that none of
the named Defendants had violated any of Crossett’s
constitutional or state-law rights. The analysis is fully
set forth in the order of the Sixth Circuit. (Petitioner’s
Appendix, 1a - - 20a).
Notably, Crossett offered no specific evidence of
membership in a tribe. Irrelevant to any argument she
actually made, she did submit two certificates “of degree
of Indian blood” from the Bureau of Indian Affairs - notably blacking out the indication of the percentage of
Indian blood. Both certificates expressly stated that they
only verified Indian “descent” and did not verify or entitle
Crossett to actual tribal membership. (See R. 34-6, Pg
ID 601, 614).
Even in her petition, Crossett’s basis for claiming that
she raised the question of Native American rights in the
district court is her request at a court conference that
any issue of her “being an Indian on Indian land . . . be
separated out, not settled,” because she did not want any
decision in her case “to jeopardize” a case by the Little
Traverse Bay Bands itself against the State of Michigan.
(Petitioner’s Appendix, 23a). In light of the actual claims

4
as presented by Crossett’s Complaint, together with her
submissions to the court, the magistrate judge stated:
I don’t know what the relevance of that is to this
particular case. I mean I’m sure it’s relevant to
you in terms of your life, but I’m not sure what
the relevance is to this particular case.
(Petitioner’s Appendix, 23a).
And, of course, Crossett herself was asking that any such
question not be addressed, in order that the tribe’s case
would deal with the matter.
Indeed, the Little Traverse Bay Band of Odawa
Indians has a case against the State of Michigan - - in
which the district court determined that the tribe does
not have reservation land. Little Traverse Bay Band of
Odawa Indians v. Whitmer, 398 F. Supp. 3d 201 (W.D.
Mich. 2019). An appeal of that case is currently pending
before the United States Court of Appeals for the Sixth
Circuit.
ARGUMENT FOR DENYING THE PETITION
I.

THIS COURT SHOULD DENY CROSSETT’S
PETITION, BECAUSE SHE SEEKS REVIEW
OF A QUESTION NEVER SUBSTANTIVELY
ARGUED BY CROSSETT IN THE DISTRICT
COURT.

This Court is “a court of review, not first view,” so
this Court generally “will not decide questions not raised
or litigated in the lower courts.” Byrd v. United States,

5
___ U.S. ___, 138 S. Ct. 1518, 1526-7 (2018), City of
Springfield, Massachusetts v. Kibbe, 480 U.S. 257, 259
(1987). A party cannot, by their submissions to this Court,
reformulate their case so as to lead this Court “to address
a question neither pressed nor passed upon below.” Timbs
v. Indiana, ___ U.S. ___, 139 S. Ct. 682, 690 (2019).
In the district court, Petitioner Crossett neither
presented as a claim in her Complaint, nor substantively
argued, the questions of whether she was a Native
American on “Indian land” when arrested or the scope
of the Respondents’ law enforcement jurisdiction in such
context. Indeed, she expressly asked the magistrate judge
not to address such issue, lest it jeopardize the pending
case of the Little Traverse Bay Band of Odawa Indians.
(Petitioner’s Appendix, 23a).
As the appellant to the Sixth Circuit, it was the
obligation of Crossett to argue any issue that she believed
to be relevant and properly preserved. Her principal
brief made no argument regarding the supposed issue of
law enforcement jurisdiction over Native Americans on
“Indian land.” Rather, it was only upon learning of this
Court’s decision in McGirt v. Oklahoma, ___ U.S. ___, 140
S. Ct. 2452 (2020), that Crossett sought in her appellate
reply brief to completely recast her case in that light.
The Sixth Circuit properly declined to address this
new and unpreserved question. (Petitioner’s Appendix,
10a). This Court should reject Crossett’s petition as well.

6
II. THIS COURT SHOULD DENY CROSSETT’S
PETITION, BECAUSE SHE IS NOT A PROPER
PARTY OR ADVOCATE REGARDING TRIBAL
RIGHTS OF THE LITTLE TRAVERSE BAY
BAND OF ODAWA INDIANS, WHICH ARE
BEING LITIGATED BY PROPER PARTIES AND
COMPETENT COUNSEL IN ANOTHER CASE.
It is axiomatic that this Court has limited resources
and must confine its discretionary review to those cases
in which important questions of law will be competently
presented and argued. This Court’s own rules recognize
that a petition “will be granted only for compelling
reasons.” Rule 10.
As a pro se litigant, Petitioner Crossett is ill-equipped
to argue the status of Native American lands or the scope
of law enforcement jurisdiction over them. With regard
to the lands of the Little Traverse Bay Band of Odawa
Indians, issues of land status are already being addressed
at the behest of the tribe through competent counsel in
the tribe’s own case - - currently pending on appeal in the
United States Court of Appeals for the Sixth Circuit. If
that matter is to come before this Court, it should come
through the vehicle of that case, or another action similarly
litigated by experienced counsel retained by the tribe. It
is not appropriate for review by this Court at the belated
initiative of a pro se litigant like Petitioner Crossett.
Indeed, the tribe would doubtless be aghast at the
notion of Crossett presuming to litigate the tribe’s
interests. One of the arrests of which Crossett complains
was at the request of tribal authorities, who asked
that Emmet County arrest and prosecute Crossett
for communicating malicious messages to the tribal
chairperson. (Petitioner’s Appendix, 2a).

7
III. THIS COURT SHOULD DENY CROSSETT’S
PETITION, BECAUSE THE SIXTH CIRCUIT
CORRECTLY DECIDED THE ISSUES ACTUALLY
PRESENTED AND ARGUED BY CROSSETT IN
THE COURTS BELOW.
The Opinion of the United States Court of Appeals for
the Sixth Circuit adequately describes and analyzes the
issues actually presented and argued by Crossett below.
The Report and Recommendation of the magistrate judge
and the Opinion and Order of the district court judge do
so as well. This Court can read these opinions. Reiteration
by the Respondents is unnecessary. Petitioner Crossett
has no valid argument against the decisions below.
CONCLUSION.
Petitioner Crossett seeks to bait review by this Court
of a question she neither argued below nor has competence
to represent in this Court. Her petition should be denied.
Respectfully submitted,
Douglas J. Curlew
Counsel of Record
Cummings, McClorey, Davis & Acho P.L.C.
17436 College Parkway
Livonia, MI 48152
(734) 261-2400
dcurlew@cmda-law.com
Counsel for Respondents
May 14, 2021

